CERTIFICATE OF WORD COUNT
NO. TBD
Kimbro Stephens Insurance Trust, and A.K. Tennessee Irrevocable Residuary Trust,
Petitioners,
v.
James E. Smith, Jr.; Kimberly Woodyard; and Smith Akins & Gladden, P.A.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the KIMBRO STEPHENS
INSURANCE TRUST, AND A.K. TENNESSEE IRREVOCABLE RESIDUARY TRUST PETITION FOR WRIT OF
CERTIORARI contains 5334 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
August 18, 2021

SCP Tracking: Carder, III-303 North Main Street-Cover White

